 

No. 20-1212

PEYMAN PAKDEL, et ux.,
Petitioners,

ve

CITY AND COUNTY OF
SAN FRANCISCO, CALIFORNIA, et al.,
Respondents

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE
OF THE PELICAN INSTITUTE FOR PUBLIC POLICY IN SUPPORT OF
PETITIONERS in the above-entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in Century Schoolbook 12-point font for the
text and 10-point font for the footnotes, and this brief contains 2,477 words, excluding the
parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1“ day of April, 2021.

Line Loh._ Wf MEDLOCK MARK HARBISON

Notary Public Notary Public, Bar No. 34410
State of Louisiana

My Commission is for Life
QA scl Onli

lant

400 POYDRAS ST., SUITE 900, NEW ORLEANS, LA 70130 | 504.500.0506 | PELICANINSTITUTE.ORG
